                                                      IG-02-019




AUDIT
                           PROPERTY CONTROL SYSTEM ANALYSIS
REPORT                         REPORTING ON SPACE FLIGHT
                                 OPERATIONS CONTRACT
                                   SUBCONTRACTORS


                                       July 8, 2002




                           OFFICE OF INSPECTOR GENERAL
National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for
Audits at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General
for Audits. Ideas and requests can also be mailed to:

       Assistant Inspector General for Audits
       Code W
       NASA Headquarters
       Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement contact the NASA Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form
or write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station,
Washington, DC 20026. The identity of each writer and caller can be kept confidential,
upon request, to the extent permitted by law.

Reader Survey
Please complete the reader survey at the end of this report or at
www.hq.nasa.gov/office/oig/hq/audits.html.




Acronyms

DOD            Department of Defense
DCMA           Defense Contract Management Agency
FAR            Federal Acquisition Regulation
FY             Fiscal Year
IPO            Industrial Property Officer
OIG            Office of Inspector General
SFOC           Space Flight Operations Contract
USA            United Space Alliance
                                       July 8, 2002

W


TO:            JSC/AA/Director, Lyndon B. Johnson Space Center

FROM:          W/Assistant Inspector General for Audits

SUBJECT:       Final Report on Audit of Property Control System Analysis Reporting on
               Space Flight Operations Contract Subcontractors
               Assignment Number A-00-007-01
               Report Number IG-02-019


Enclosed please find the subject final report. Our evaluation of your response has been
incorporated into the body of the report. We consider management's proposed corrective
actions responsive for the recommendations, which will remain open for reporting
purposes until corrective actions are completed. Please notify us when actions have been
completed on these recommendations. The final report distribution is in Appendix F.

We appreciate the courtesies extended to the audit staff. If you have questions
concerning the report, please contact Daniel J. Samoviski, at (301) 286-6890, or Larry J.
Timmons, at (321) 867-4705.



[Original Signed By]
Alan J. Lamoreaux

Enclosure
                                                        2

cc:
HQ/AI/Associate Deputy Administrator
HQ/AB/Associate Deputy Administrator for Institutions
HQ/B/Deputy Chief Financial Officer
HQ/B/Comptroller
HQ/BF/Director, Financial Management Division
HQ/G/General Counsel
HQ/JM/Director, Management Assessment Division




                                         2
                           NASA Office of Inspector General
IG-02-019                                                                      July 8, 2002
 A-00-007-01

                 Property Control System Analysis Reporting on
                 Space Flight Operations Contract Subcontractors


Introduction

NASA accomplishes much of its mission through the use of contractors and often
provides Government-furnished property to them, or the contractors acquire property
using NASA funds. On October 31, 1996, the Johnson Space Center (Johnson) awarded
the Space Flight Operations Contract (SFOC) to the United Space Alliance (USA). The
SFOC involves processing and maintaining the Space Shuttle, which includes the orbiter,
external tank, and solid rocket booster components. As of September 30, 2000, USA
held Government property1 valued at more than $9.6 billion and 107 SFOC
subcontractors held $1.289 billion of Government property.

Contractors and subcontractors are required to manage and account for NASA property
in accordance with Federal and NASA regulations and policies. Accordingly, contractors
and subcontractors develop and maintain property management systems to ensure that
they comply with those requirements. A prime contractor can either oversee a
subcontractor's property management system or request that NASA delegate this
responsibility to a supporting Government property administrator, such as the Defense
Contract Management Agency (DCMA2).

At USA's request, NASA delegated oversight responsibility to the DCMA for the 107
SFOC subcontractors. This oversight responsibility includes performing a property
control system analysis (System Analysis) of the contractor's property management
system. The System Analysis is a critical property management tool because it evaluates
15 elements of a contractor's property management system (see Appendix B). The
objective of the System Analysis is to identify system weaknesses and ensure compliance
with contract terms and conditions. For example, for the acquisition element of the
System Analysis, DCMA addresses contract compliance by assessing acquisition controls
to ensure that contractors and subcontractors buy or fabricate only contractually approved
items. If the DCMA waives the System Analysis, then DCMA should provide a letter to



1
  Government property includes items such as special test equipment, special tooling, agency-peculiar
equipment, and raw materials used for Shuttle and International Space Station fabrication and maintenance.
2
  The DCMA, a Department of Defense agency, provides a variety of delegated services to Federal
agencies such as contract administration, quality assurance, and property administration.
NASA stating so and the basis for the waiver.3 DCMA summarizes the results of the
System Analysis in a report tilted "Summary of Property Control System Analysis,”
which should be provided to the Johnson Industrial Property Officer (IPO) within 30
days of issuance.4

Our audit objective was to determine whether NASA properly managed contractor-held
property by obtaining and reviewing DCMA System Analysis reports. A subsequent
report will address other issues associated with property that was lost, damaged, or
destroyed and identifying excess property. Details on our scope and methodology are in
Appendix A.

Property Administration Oversight Reporting

NASA is not assured that Government property held by SFOC subcontractors was
properly managed. Specifically, NASA property officials did not maintain effective
communications with DCMA property administrators to keep fully informed about SFOC
subcontractor performance and progress related to property control problems. For
example, the NASA IPO did not obtain and review fiscal year (FY) 2000 DCMA System
Analysis Reports for SFOC subcontractors whose property administration NASA
delegated to DCMA at the request of the prime contractor. This occurred because the
SFOC IPO did not perform the required property management administration oversight
responsibilities. Accordingly, NASA is not assured that the SFOC prime contractor has
an established system to assess the adequacy of records control, protection, preservation,
and maintenance of $86 million of Government property in the possession of SFOC
subcontractors.

NASA Guidance for Property Administration

Agency Guidance. The NASA Federal Acquisition Regulation (FAR) Supplement,
Subpart 1845.7205, describes property administration functional oversight
responsibilities. The NASA FAR Supplement states that NASA contracting officers
retain functional management responsibility for their contracts. Furthermore, utilization
of another contract administration office, such as DCMA, does not relieve contracting
officers of their ultimate responsibility for the proper and effective management of
contracts. Each NASA installation designates an IPO to manage and coordinate property
matters among the various contracting officers, technical officials, contractor officials,
delegated property administrators such as DCMA, and plant clearance officers.
Generally, the IPO is responsible for the entire contract property management function.

The NASA FAR Supplement 1845.7205 assigns several responsibilities to the IPO
including maintaining effective communication with delegated property administrators,

3
  The Letter of Contract Administration Delegation, Special Instructions (NASA Form 1430A), requires
DCMA to advise NASA on any waivers of the System Analysis.
4
  Details on the IPO's responsibilities are in this report in the section entitled Property Administration
Oversight Reporting.


                                                      2
such as DCMA, to keep fully informed about contractor performance and progress on
any property control problems. Furthermore, the IPO is required to obtain and review
System Analysis reports for all contracts for which property administration has been
delegated in order to keep fully informed of any property control problems.

Procurement Information Circular. On August 13, 1997, the NASA Procurement
Office issued Procurement Information Circular 97-5, which contains instructions for
contracting officers to use when delegating property administration and plant clearance
responsibilities (see Appendix C). The Circular requires the contracting officer to ensure
that DCMA regularly provides all the required information and documents, such as the
System Analysis reports, to NASA.

Department of Defense (DOD) Guidance. The DOD Manual for the Performance of
Contract Property Administration sets forth instructions to property administrators to
ensure uniformity and consistency in the administration of contract provisions relating to
property held by contractors and subcontractors. The Manual identifies 15 property
management system analysis elements, which are briefly described in Appendix B. For
one of those elements, subcontract control, the Manual states that if a delegated property
administrator, such as DCMA, identifies deficiencies in the subcontractor's property
management system, then the NASA property administrator will ascertain whether the
prime contractor had knowledge of the deficiencies and whether corrective actions were
implemented. The System Analysis reports should identify deficiencies in the
subcontractor's property management system.

Submission of System Analysis Reports

System Analysis Reports Not Obtained and Reviewed. The Johnson IPO did not
perform required property management oversight responsibilities. Specifically, for
FY 2000, the Johnson IPO did not obtain and review 34 of the 107 required System
Analysis reports for SFOC subcontractors or obtain waiver justifications from DCMA.
The 34 subcontracts, which included $86 million in Government property, are shown in
Appendix D.5 The IPO is identified in the contracting officer's Letter of Acceptance of
Contract Administration Delegation (NASA Form 1431) as the recipient of the System
Analysis reports or waiver justifications. As stated in the NASA FAR Supplement, the
IPO is the primary custodian of the System Analysis reports and uses them to manage
and account for Government property in the possession of subcontractors. The IPO,
therefore, must ensure that the System Analysis reports are obtained and reviewed within
30 days of issuance and should request them directly from the DCMA when they are not
received. If the reports are not received after notification to DCMA, the IPO should
inform the cognizant contracting officer.


5
  During our audit work, we found that NASA did not assess SFOC subcontract management in 2001. As
a result, we obtained a subcontract listing from USA, which showed that, as of March 4, 2002, USA had
not received 25 of 102 required System Analysis reports. The property value related to the 25 reports
exceeds $53 million.



                                                  3
Need for System Analysis Reports. We judgmentally selected 20 of the 34 subcontracts
for review to determine the reasons the System Analysis reports were not obtained and
reviewed. The 20 subcontracts accounted for $65 million of the $86 million of
contractor-held property. We contacted the DCMA property administrators for the
selected subcontracts and obtained System Analysis reports for all 20 subcontracts. (The
20 subcontracts are identified in Appendix D with a yes in the Reports Obtained column.)
The Johnson IPO stated that she did not obtain and review all the System Analysis
reports during FY 2000 because of a heavy workload and insufficient staff resources.
Further, the IPO did not notify the SFOC contracting officer that all the required System
Analysis reports (or waiver justifications) for SFOC subcontractors were not received.

Because the IPO did not obtain and review the 34 System Analysis reports, NASA could
not determine whether $86 million in Government property held by 34 (of 107) SFOC
subcontractors was properly managed and accounted for. The NASA IPO and property
administrators should use the System Analysis reports to assess the contractor’s
performance of property administration. The analysis of a contractor's property control
system is a critical part of the property oversight process. Through reviewing the System
Analysis report, the property administrator determines whether the contractor is
effectively and efficiently complying with the terms and conditions of the contract.

If the System Analysis report identifies unsatisfactory conditions, NASA may disapprove
the contractor's property control system. When this happens, the contractor's liability for
lost, damaged, or destroyed property could increase. The status of the property control
system determines where the burden of proof rests whenever Government property is
lost, damaged, or destroyed. Under an approved property control system, the burden of
proof rests with the Government to prove that the property loss, damage, or destruction
resulted from willful misconduct or lack of good faith on the part of the contractor.
However, under a property management system in which approval has been withheld or
withdrawn, the burden of proof shifts to the contractor, who must prove that the property
loss, damage, or destruction was not connected with any deficiency that caused
withdrawal of system approval.

Conclusion

System Analysis reports serve an important function in ensuring that contractors comply
with contract terms and conditions while managing Government property in their
custody. Approval of a contractor's property management system also affects the
contractor's liability for property that is lost, damaged, or destroyed. Accordingly, it is
critical that NASA annually obtain and review the reports for each of the USA
subcontractors to ensure that Government property valued at more than a billion dollars
in their possession is being properly managed and accounted for. NASA should contact
DCMA and determine the status of the System Analysis reports for the 14 contracts noted
in Appendix D.




                                             4
Recommendations, Management's Response, and Evaluation of
Response

The Director, Johnson Space Center, should direct:

   1. The SFOC contracting officer to immediately initiate follow-up actions with
      DCMA to ensure that it submits the remaining 14 System Analysis reports.

   2. The IPO to annually obtain and review the System Analysis reports for all
      SFOC subcontractors, for which NASA delegated property administration
      responsibilities to DCMA (at USA's request), in accordance with the
      requirements of the NASA FAR Supplement.


Management's Response. NASA concurred with the recommendations and is in the
process of completing corrective actions. However, NASA did not agree with the report
findings and conclusions regarding oversight adequacy. NASA stated that actual
oversight responsibility, which is the prime contractor's responsibility; the adequacy of
the subcontractors' property control; and the performance of system analysis by DCMA
were never in question. NASA stated that the only issue in question is the Johnson IPO
maintenance of a complete file of DCMA subcontractor system analysis reports, which is
not required.

For recommendation 1, NASA stated that the delegations, which created the requirement
for DCMA to send the System Analysis reports to NASA, were in error and were not a
FAR requirement. Further, all existing support requests will be reissued to reflect
supporting property administration special instructions and to require that copies of
System Analysis reports be submitted to the prime contractor. The Johnson property
administrator obtained the outstanding 14 System Analysis reports to ensure that all
issues discussed in the audit report were properly reviewed.

Regarding recommendation 2, although NASA did not agree with the report findings,
management is taking appropriate actions to establish a better delineation of the
appropriate property administration responsibilities for all parties involved. NASA
management stated that the report findings are based on the auditor’s interpretation of the
extent of the Government’s responsibilities regarding subcontractor oversight and that
prime contractors are responsible for all Government property under their contracts,
including property in the possession or control of a subcontractor. There is no
requirement for the IPO to obtain, review, and maintain a file of the systems analyses for
the prime contractor’s subcontractors. The NASA property administrator is to review the
prime contractors’ management and control of their subcontractors during the
performance of the Subcontract Control function. NASA has no privity of contract with
a prime contractor’s subcontractors. Subcontracts are commercial agreements, not
Government contracts. NASA has privity of contract with prime contractors only;



                                             5
therefore, NASA requires them to ensure that their subcontractors manage any NASA-
owned property in accordance with the prime’s standards that have been approved by the
Government. Only the prime contractor is required to provide property management and
data to NASA, regardless of where the property is located. NASA may request
supporting property administration at an alternate or subcontractor location when
requested by the prime contractor. This does not relieve the prime contractor of
responsibility.

The complete text of management's response is in Appendix E.


Evaluation of Management's Response. Management's proposed actions are
responsive to our recommendations. The recommendations are considered resolved but
will remain open until proposed actions are completed.

In reference to recommendation 1, NASA is reissuing those delegations, which will
require DCMA to send the System Analysis reports to the prime contractor instead of to
the IPO. The delegation re-issuance eliminates the requirement for the IPO to obtain and
review the System Analysis reports. Although NASA stated that the 14 outstanding
System Analysis reports were obtained and reviewed, NASA did not state whether
DCMA identified any system deficiencies for those contractors. We will address this
question during our verification of NASA's corrective actions.

Regarding recommendation 2, we do not agree with NASA's position that the report
findings are based on our interpretation of the extent of the Government’s responsibilities
regarding subcontractor oversight. Rather, our position is the result of the property
administration delegations, which created the requirement for DCMA to send System
Analysis reports or waiver justifications to NASA. As a result, the Johnson IPO should
have obtained and reviewed the reports or waiver justifications as required by the NASA
FAR Supplement. We discussed our concerns with former NASA contracting officers
who concurred with our observations and conclusions. As noted earlier, NASA
management is reissuing the delegations to require DCMA to issue the System Analysis
reports to the prime contractor instead of the IPO.

We also do not agree with NASA's position that the only issue in question was the
maintenance of a complete file of DCMA reports by the Johnson IPO. Those reports
serve a valuable purpose in that they alert both the prime contractor and NASA
management of potential property management system deficiencies. When the reports
are not obtained and reviewed by NASA, then NASA loses assurance that the contractor
is complying with contract terms and conditions while managing Government property in
its custody.




                                             6
             Appendix A. Objectives, Scope, and Methodology

Objective

Our overall objective, which will be addressed in future audits, was to determine whether
NASA and its delegated agencies appropriately managed Government property held by
contractors. This report addresses whether the Johnson Space Center (Johnson) obtained
and reviewed required reports from the Defense Contract Management Agency (DCMA).

Scope and Methodology

The audit scope focused on property administration and Property Control System
Analysis (System Analysis) reports received for fiscal year 2000 under the Space Flight
Operations Contract (NAS 9-20000). We reviewed contract documentation for 107
contracts with more than $1.2 billion in contractor-held property to determine whether
the Johnson Industrial Property Officer (IPO) followed property administration
requirements and guidance. We identified 34 SFOC subcontracts with $86 million in
contractor-held property for which the Johnson IPO did not obtain and review System
Analysis reports or waivers from DCMA. We reviewed pertinent System Analysis
reports and Department of Defense (DOD) and NASA guidance. We interviewed NASA
and contractor personnel to clarify property administration issues. We did not use
computer-processed data in the audit.

Management Controls Reviewed

We reviewed the following management controls:

   •   Federal Acquisition Regulation (FAR) Part 42, "Contract Administration and
       Audit Services," Subpart 42.2, "Contract Administration Services," states that
       contracting officers can delegate contract administration or specialized support
       services to another agency such as the DCMA.

   •   FAR Part 42, "Contract Administration and Audit Services," Subpart 42.3,
       "Contract Administration Office Functions," lists those services, which include
       property administration, that can be delegated by a contracting officer.

   •   FAR Part 45, "Government Property," Subpart 45.3, "Providing Government
       Property to Contractors," describes policies and procedures for providing
       Government property to contractors.

   •   FAR Part 45, "Government Property," Subpart 45.5, "Management of
       Government Property in the Possession of Contractors," prescribes the minimum
       requirements contractors must meet in establishing and maintaining control over
       Government property.


                                   7
    ADMINISTRATIVELY CONTROLLED INFORMATION - INTERNAL PREDECISIONAL
FOR OFFICIAL USE ONLY                                 DRAFT AUDIT REPORT
Appendix A


   •   NASA FAR Supplement Part 1845, "Government Property," Subpart 1845.1,
       "General," states that NASA will use DOD Manual 4161.2-M, "Manual for the
       Performance of Contract Property Administration," when reviewing a contractor's
       property administration system.

   •   NASA FAR Supplement Part 1845, "Government Property," Subpart 1845.72,
       "Contract Property Management," Section 1845.7203, "Delegations of Property
       Administration and Plant Clearance," states that when property administration is
       delegated to DOD, property administration will be performed in accordance with
       DOD regulations and procedures.

   •   NASA FAR Supplement Part 1845, "Government Property," Subpart 1845.72,
       "Contract Property Management," Section 7204, "Retention of property
       administration and plant clearance," states that NASA may occasionally retain the
       property administration and plant clearance functions.

   •   DOD Manual 4161.2-M, "DOD Manual for the Performance of Contract Property
       Administration," sets forth instructions to ensure uniformity and consistency in
       the administration of contract provisions relating to Government property in the
       possession of contractors.

Audit Field Work

We performed the audit field work at Johnson and Kennedy Space Centers from October
2000 through November 2001. We conducted the audit in accordance with generally
accepted government auditing standards.




                                   8
    ADMINISTRATIVELY CONTROLLED INFORMATION - INTERNAL PREDECISIONAL
FOR OFFICIAL USE ONLY                                 DRAFT AUDIT REPORT
      Appendix B. Property Management System Analysis Elements

The objective of a property management system analysis is to assess the contractor's
ability to comply with the approved property control system and contractual obligations
as they pertain to property. The analysis, based on criteria in DOD Manual 4161.2-M,
includes 15 elements, which are described below:

1. Property Management. Ensures that the contractor establishes and maintains an approved
property control system.

2. Acquisition. Ensures that only contractually approved items are bought or fabricated.

3. Receiving. Ensures that damaged or missing items are resolved and that accepted items are
properly recorded.

4. Identification. Ensures that property is properly identified, marked, and recorded.

5. Records. Ensure proper accountability of property.

6. Movement. Ensures that property is moved under the proper authority with appropriate
documentation and adequate protection.

7. Storage. Ensures that stored property is controlled, protected, and preserved.

8. Physical Inventories. Ensure that the contractor schedules and performs inventories in
accordance with the contractor's approved property control system.

9. Reports Preparation. Ensures that contractor's property reports are timely, accurate, and
complete.

10. Materials Consumption. Ensures that materials are consumed in accordance with contract
requirements and are not diverted to other work.

11. Utilization. Ensures that the contractor used property in accordance with the contract terms
and conditions.

12. Maintenance. Ensures that the contractor established and follows an appropriate method of
maintaining property.

13. Subcontract Control. Ensures that the contractor established adequate subcontract control.

14. Disposition. Ensures that the contractor has a system for disclosing excess property and for
effecting its timely disposition.

15. Contract Close-Out. Ensures that the contractor has a method to ensure completion of all
contract close-out actions related to property.




                                   9
    ADMINISTRATIVELY CONTROLLED INFORMATION - INTERNAL PREDECISIONAL
FOR OFFICIAL USE ONLY                                 DRAFT AUDIT REPORT
         Appendix C. Procurement Information Circular 97-5




                                   10
    ADMINISTRATIVELY CONTROLLED INFORMATION - INTERNAL PREDECISIONAL
FOR OFFICIAL USE ONLY                                 DRAFT AUDIT REPORT
              Appendix D. SFOC Subcontracts Without FY 2000
                         System Analysis Reports
 Subcontract          Subcontractor                Report              Amount             Reports
  Number                                            Date1                                Obtained2
42736           Abex Parker Hannifin                 12/28/99      $      270,512          Yes
RR96K0171       AIL Systems                          09/23/99           3,826,513           No
43060           Allied Signal                        09/29/99           6,531,189           No
RR97K0229       Arrowhead                               06/99             985,741           No
DT97K0045       Arrowhead Products                   06/09/98             520,876           No
PP98K04284      Ball Aerospace                       07/01/99             452,182          Yes
RR98K0303       Ball Aerospace                       07/01/99           3,948,772          Yes
P00032830       Ball Aerospace                       11/01/99           2,061,307          Yes
40756           Cincinnati Electronics               08/26/99           1,304,588          Yes
RR96K0166       Corning, Inc.                           09/99           4,427,404          Yes
PP96K1988       Eaton                                12/14/98             989,505           No
DT97K0047       Hamilton Sundstrand                  09/10/98           4,374,735          Yes
P000024504      Hamilton Sundstrand                  09/10/98             510,118          Yes
RR96K0183       Hamilton Sundstrand                  09/10/98           3,424,249          Yes
40467           Hi Shear                             11/18/98             130,863           No
77492           Honeywell                            02/09/99           7,850,670          Yes
DT97K0040       Honeywell                            02/09/99           4,165,418          Yes
P000040406      Honeywell                            02/09/99             168,640          Yes
RR98K0336       Honeywell                            02/09/99           2,940,480          Yes
DT97K0052       Kearfott                             11/05/96           1,435,676           No
RR97K0222       Kearfott                             11/05/96           1,325,426           No
RR97K0294       L-3 Communication                    03/25/97             121,821           No
43878           Lebarge, Joplin                      08/19/97             395,417           No
P000020662      Lockheed Martin                      06/10/99          12,278,901          Yes
RR98K0306       Lockheed Martin                      06/10/99           5,583,971          Yes
42628           Metrum-Datape                        01/19/95             364,994           No
40754           Moog                                 04/22/99           7,861,225          Yes
300552          Moog                                 04/22/99             131,062          Yes
DT97K0051       Moog                                 04/22/99           1,498,305          Yes
RR97K0249       Moog                                 04/22/99           1,295,106          Yes
RR96K0164       Northrup Grumman                     09/29/97           3,964,823           No
DT97K0048       Odetics                              08/29/96           1,186,562          Yes
45882           Primex Aeorspace                     11/23/98             176,244           No
PP97K3386       Primex Aeorspace                     11/23/99             162,453           No

                                                          Total     $86,665,748
  1.
     The report date is the most current report in the property administrator’s file. The Defense Contract
  Management Agency (DCMA) rated the subcontractor’s property management system as of the report
  date.
  2.
     Yes means that we obtained the DCMA System Analysis reports and that the subcontractor’s
  property management system is rated satisfactory. No indicates that we did not obtain System
  Analysis reports from the DCMA for these subcontractors. Accordingly, the Johnson Industrial
  Property Officer should obtain and review these reports.




                                                  11
Appendix E. Management's Response




               12
     Appendix E




13
Appendix E




             14
     Appendix E




15
Appendix E




             16
     Appendix E




17
                      Appendix F. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

HQ/A/Administrator
HQ/AI/Associate Deputy Administrator
HQ/AA/Chief of Staff
HQ/AB/Associate Deputy Administrator for Institutions
HQ/B/Acting Chief Financial Officer
HQ/B/Comptroller
HQ/BF/Director, Financial Management Division
HQ/G/General Counsel
HQ/H/Assistant Administrator for Procurement
HQ/HK/Director, Contract Management Division
HQ/HS/Director, Program Operations Division
HQ/J/Assistant Administrator for Management Systems
HQ/JM/Director, Management Assessment Division
HQ/L/Assistant Administrator for Legislative Affairs
HQ/M/Associate Administrator for Space Flight

NASA Centers

JSC/AA/Director, Lyndon B. Johnson Space Center
KSC/AA/Director, John F. Kennedy Space Center
KSC/CC/Chief Counsel, John F. Kennedy Space Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Managing Director, Acquisition and Sourcing Management Team, General Accounting
 Office
Senior Professional Staff Member, Senate Subcommittee on Science, Technology, and
 Space




                                         18
                                                                     Appendix F

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
 Intergovernmental Relations
House Subcommittee on Technology and Procurement Policy
House Committee on Science
House Subcommittee on Space and Aeronautics, Committee on Science

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                         19
                         NASA Assistant Inspector General for Audits
                                      Reader Survey

The NASA Office of Inspector General has a continuing interest in improving the
usefulness of our reports. We wish to make our reports responsive to our customers’
interests, consistent with our statutory responsibility. Could you help us by completing
our reader survey? For your convenience, the questionnaire can be completed
electronically through our homepage at http://www.hq.nasa.gov/office/oig/hq/audits.html
or can be mailed to the Assistant Inspector General for Audits; NASA Headquarters,
Code W, Washington, DC 20546-0001.

Report Title: Property Control System Analysis Reporting on Space Flight Operations
              Contract Subcontractors

Report Number:                                            Report Date:


CIRCLE THE APPROPRIATE RATING FOR THE FOLLOWING STATEMENTS.

                                                      Strongly                                Strongly
                                                      Agree      Agree   Neutral   Disagree   Disagree   N/A
1.   The report was clear, readable, and logically       5         4       3          2           1      N/A
     organized.
2.   The report was concise and to the point.              5       4       3          2          1       N/A
3.   We effectively communicated the audit                 5       4       3          2          1       N/A
     objectives, scope, and methodology.
4.   The report contained sufficient information to        5       4       3          2          1       N/A
     support the finding(s) in a balanced and
     objective manner.

Overall, how would you rate the report?

#     Excellent         #    Fair
#     Very Good         #    Poor
#     Good
If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.




                                                      1
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

   #   Congressional Staff                 #     Media
   #   NASA Employee                       #     Public Interest
   #   Private Citizen                     #     Other:
   #   Government:            Federal:              State:         Local:


May we contact you about your comments?

Yes: ______                                    No: ______
Name: ____________________________
Telephone: ________________________


Thank you for your cooperation in completing this survey.




                                           2
Major Contributors to the Report
Daniel Samoviski, Program Director, Program and Project Management Audits

Larry J. Timmons, Auditor-in-Charge

Ellis Lee, Auditor

Nancy Cipolla, Report Process Manager

Iris Purcarey, Program Assistant
